APPENDIX TABLE OF CONTENTS
Opinion of the Court of Criminal Appeals,
State of Oklahoma (April 1, 2021) ........................... 1a
District Court of Pittsburg County, State of
Oklahoma, Order with Findings of Fact and
Conclusions of Law (Signed October 27, 2020,
Filed October 28, 2020) ........................................... 19a
Court of Criminal Appeals, State of Oklahoma,
Order Remanding for Evidentiary Hearing
(August 19, 2020) .................................................... 33a

App.1a
OPINION OF THE COURT OF CRIMINAL
APPEALS, STATE OF OKLAHOMA
(APRIL 1, 2021)
2021 OK CR 6
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DEVIN WARREN SIZEMORE,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2018-1140
FOR PUBLICATION
Before: Dana KUEHN, President Judge.,
Scott ROWLAND, Vice President Judge.,
Gary L. LUMPKIN, Judge., David B. LEWIS, Judge.,
Robert L. HUDSON, Judge.
OPINION
ROWLAND, VICE PRESIDING JUDGE:
¶ 1 This appeal turns on whether Appellant
Devin Warren Sizemore is an Indian as defined by
federal law, and whether he committed murder and
assault and battery upon a police officer within Indian

App.2a
country as that term is defined by federal law. Because the answer to both questions is yes, federal law
grants exclusive criminal jurisdiction to the federal
government on the murder charge at the very least
and possibly the assault charge as well. Regardless,
the State of Oklahoma was without jurisdiction to
prosecute him.
1. Factual Background
¶ 2 In July of 2016, police in Krebs, Oklahoma
were contacted by Sizemore’s family members, worried
about his and his twenty-one month old daughter’s
safety. Some fifteen hours after this call to police,
officers searching for the pair heard screaming from
a local pond and discovered Sizemore there. Upon
seeing the police, he fled into the water and officers
encountered him near what appeared to be a small
body floating face down. Attempts to subdue him
resulted in a fight both in and out of the water, but
the officers eventually took him into custody. His
young daughter was pulled from the water but did
not survive; she had drowned.
¶ 3 Sizemore was tried by jury in the District
Court of Pittsburg County, Case No. CF-2016-593, and
convicted of First Degree Murder (Count 1), in violation of 21 O.S.Supp.2012, § 701.7 and Battery/Assault
and Battery on a Police Officer (Count 2), in violation
of 21 O.S.Supp.2015, § 649. In accordance with the
jury’s verdict, the Honorable Tim Mills, Associate District Judge, sentenced Sizemore to life imprisonment
without the possibility of parole on Count 1 and five
years imprisonment on Count 2, with the sentences
to be served concurrently.

App.3a
¶ 4 In this direct appeal, Sizemore alleges the
following errors:
(1) The State of Oklahoma lacked jurisdiction
to prosecute him because he is an “Indian”
and the crime occurred in “Indian Country”;
(2) He received ineffective assistance of trial
counsel;
(3) The evidence was insufficient to prove all
elements of First Degree Murder beyond a
reasonable doubt;
(4) The district court erred in admitting his
recorded interrogation;
(5) The district court erred by denying his motion
to quash his arrest; and
(6) An accumulation of error deprived him of a
fair trial.
¶ 5 Because, as noted above, we find relief is
required on Sizemore’s jurisdictional challenge in
Proposition 1, his other claims are moot.
2. The Legal Background
A. The Major Crimes Act
¶ 6 Title 18 Section 1153 of the United States
Code, known as the Major Crimes Act, grants exclusive
federal jurisdiction to prosecute certain enumerated
offenses committed by Indians within Indian country.
It reads in relevant part as follows:
Any Indian who commits against the person
or property of another Indian or other person
any of the following offenses, namely, murder,

App.4a
manslaughter, kidnapping, maiming, a felony
under chapter 109A, incest, a felony assault
under section 113, an assault against an
individual who has not attained the age of 16
years, felony child abuse or neglect, arson,
burglary, robbery, and a felony under section
661 of this title within the Indian country,
shall be subject to the same law and penalties as all other persons committing any of
the above offenses, within the exclusive
jurisdiction of the United States.
18 U.S.C. § 1153(a) (2013).
¶ 7 Count 1, the murder charge, fits squarely
within the Major Crimes Act and its exclusive federal
jurisdiction, but whether Count 2 is among these
enumerated crimes is much less clear. It may constitute
a “felony assault under section 113”, but that is not
something we must decide today. If the assault on a
police officer is not covered by Section 1153, it is subject to the Act’s sister statute, 18 U.S.C. § 1152 (1948),
which applies to other offenses and provides for federal or tribal jurisdiction. In either event, the State
of Oklahoma was without jurisdiction to prosecute
such an assault by an Indian within Indian country.
See State v. Klindt, 1989 OK CR 75, ¶ 3, 782 P.2d 401,
403 (“[T]he State of Oklahoma does not have jurisdiction over crimes committed by or against an Indian
in Indian Country.”)
B. McGirt v. Oklahoma
¶ 8 Nothing we have said thus far is in any way
new, as these federal statutes asserting federal criminal
jurisdiction in Indian country are more than one
hundred years old. What has recently changed is the

App.5a
definition of Indian country, within the borders of
Oklahoma, for purposes of these statutes. In McGirt
v. Oklahoma, 591 U.S. ___, 140 S. Ct. 2452 (2020),
the Supreme Court held that land set aside for the
Muscogee-Creek Nation in the 1800’s was intended
by Congress to be an Indian reservation, and that
this reservation exists today for purposes of federal
criminal law because Congress has never explicitly
disestablished it. Although the case now before us
involves the lands of the Choctaw Nation, we find
McGirt’s reasoning controlling.
3. Two Questions Upon Remand
A. Sizemore’s Status as Indian
¶ 9 After McGirt was decided, this Court, on
August 19, 2020, remanded this case to the District
Court of Pittsburgh County for an evidentiary hearing.
The District Court was directed to make findings of
fact and conclusions of law on two issues: (a) Sizemore’s
status as an Indian; and (b) whether the crime occurred
in Indian Country, namely within the boundaries of
the Choctaw Nation Reservation. Our Order provided
that, if the parties agreed as to what the evidence
would show with regard to the questions presented,
the parties could enter into a written stipulation
setting forth those facts, and no hearing would be
necessary. On October 14, 2020, the parties stipulated
to the first of these requirements, agreeing that (1)
Sizemore has some Indian blood; (2) he was an
enrolled member of the Choctaw Nation on the date
of the charged offenses; and (3) the Choctaw Nation
is a federally recognized tribe. Judge Mills accepted
this stipulation and found that on the date of the
charged crimes, Sizemore was an Indian for purposes

App.6a
of federal law. We adopt the district court’s findings
and conclusion.
B. Whether Crimes Were
Committed in Indian Country
1. Congress Established a Choctaw Reservation
in the 1800s
¶ 10 As to the second question on remand,
whether the crimes were committed in Indian country,
the stipulation of the parties was less dispositive. They
acknowledged only that the charged crimes occurred
within the historical geographic area of the Choctaw
Nation as designated by various treaties. The stipulation went on to state that the crimes occurred in
Indian country “only if the Court determines that those
treaties established a reservation, and if the Court
further concludes that Congress never explicitly erased
those boundaries and disestablished that reservation.”
¶ 11 In a thorough and well-reasoned order, Judge
Mills examined the 19th century treaties between the
Choctaw Nation and the United States of America.
He concluded that the land set aside for the Choctaw
Nation, beginning with the Treaty of Dancing Rabbit
Creek in 1830, as reaffirmed and modified by the
Treaty of Washington in 1855, and further modified
by the post-civil war Treaty of Washington in 1866,
established a Choctaw Reservation.
¶ 12 This finding is consistent with McGirt, where
the majority found it “obvious” that a similar course
of dealing between Congress and the Creeks had
created a reservation, even though that term had not
always been used to refer to the lands set aside for
them, “perhaps because that word had not yet acquired

App.7a
such distinctive significance in federal Indian law.”
McGirt, 140 S. Ct. at 2461. Following the reasoning
in McGirt, Judge Mills ruled that through its treaties
with the Choctaw Nation, Congress established a
Choctaw Reservation in the 1800’s.
2. Congress Has Never Disestablished the
Choctaw Reservation
¶ 13 “To determine whether a tribe continues to
hold a reservation, there is only one place we may
look: The Acts of Congress.” McGirt, 140 S. Ct. at 2462.
No particular words or verbiage are required, but
there must be a clear expression of congressional
intent to terminate the reservation.
History shows that Congress knows how to
withdraw a reservation when it can muster
the will. Sometimes, legislation has provided
an “[e]xplicit reference to cession” or an “unconditional commitment to compensate the
Indian tribe for its opened land.” Ibid. Other
times, Congress has directed that tribal lands
shall be “‘restored to the public domain.”’
Hagen v. Utah, 510 U.S. 399, 412, 114 S. Ct.
958, 127 L.Ed.2d 252 (1994) (emphasis deleted). Likewise, Congress might speak of a
reservation as being ‘“discontinued,”’ ‘“abolished,’” or ‘“vacated.’” Mattz v. Arnett, 412 U.S.
481, 504, n. 22, 93 S. Ct. 2245, 37 L.Ed.2d
92 (1973). Disestablishment has “never
required any particular form of words,”
Hagen, 510 U.S., at 411, 114 S. Ct. 958. But it
does require that Congress clearly express its
intent to do so, “[c]ommon[ly with an] ‘[e]xplicit reference to cession or other language

App.8a
evidencing the present and total surrender
of all tribal interests.”’ Nebraska v. Parker,
577 U.S. 481, ___, 136 S. Ct. 1072, 1079,
194 L.Ed.2d 152 (2016).
Id., 140 S. Ct. 2462-63.
¶ 14 The record before the district court in this
case, similar to that in McGirt, shows Congress,
through treaties, removed the Choctaw people from
one area of the United States to another where they
were promised certain lands. Subsequent treaties
redefined the geographical boundaries of those lands,
but nothing in any of those documents showed a
congressional intent to erase the boundaries of the
Reservation and terminate its existence.1 Congress,
and Congress alone, has the power to abrogate those
treaties, and “this Court [will not] lightly infer such a
breach once Congress has established a reservation.”
McGirt, 140 S. Ct. at 2462 (citing Solem v. Bartlett,
465 U.S. 463, 470, (1984)).
¶ 15 Noting that the State of Oklahoma presented
no evidence to show that Congress erased or disestablished the boundaries of the Choctaw Nation
Reservation, and citing language from McGirt noting
that allotment of individual plots of land within this
area do not equate to disestablishment, Judge Mills
found that the Choctaw Reservation remains in existence. This finding is supported by the record.
¶ 16 We hold that for purposes of federal criminal
law, the land upon which the parties agree Sizemore
1 The State presented no evidence or argument on whether a
reservation was ever established or disestablished for the Choctaw
Nation.

App.9a
allegedly committed these crimes is within the Choctaw
Reservation and is thus Indian country. The ruling
in McGirt governs this case and requires us to find
the District Court of Pittsburgh County did not have
jurisdiction to prosecute Sizemore. Accordingly, we
grant Proposition 1.
DECISION
¶ 17 The Judgment and Sentence of the district
court is VACATED and this matter is REMANDED
WITH INSTRUCTIONS TO DISMISS. Pursuant to
Rule 3.15, Rules of the Oklahoma Court of Criminal
Appeals, Title 22, Ch. 18, App. (2021), the MANDATE
is ORDERED to issue in twenty (20) days from the
delivery and filing of this decision.
AN APPEAL FROM THE DISTRICT COURT
OF PITTSBURG COUNTY THE HONORABLE
TIMOTHY E. MILLS ASSOCIATE
DISTRICT JUDGE
APPEARANCES AT TRIAL
Matthew T. Sheets
Sheets Law Firm, P.C.
321 S. 3rd Street, Suite 12
McAlester, OK 74501
Counsel for Defendant
J. Michael Miller
Attorney at Law
323 1/2 E. Carl Albert Pkwy.
McAlester, OK 74501
Counsel for Defendant

App.10a
Charles D. Sullivan
Amanda Self
Asst. District Attorneys
115 E. Carl Albert Pkwy.
McAlester, OK 74501
Counsel for State
APPEARANCES ON APPEAL
Katie Bourassa
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Mike Hunter
Attorney General of Oklahoma
Taylor L. Ledford
Assistant Attorney General
313 N.E. 218th Street
Oklahoma City, OK 73105
Counsel for Appellee
APPEARANCES AT EVIDENTIARY HEARING
Katie Bourassa
Oklahoma Indigent Defense System
P.O. Box 926
Norman, OK 73070
Counsel for Appellant
Chuck Sullivan
Asst District Attorney
109 E. Carl Albert Pkwy.
McAlester, OK 74501
Counsel for State

App.11a
Mike Hunter
Attorney General of Oklahoma
Julie Pittman
Caroline Hunt
Asst. Attorney Generals
313 N.E. 21st Street
Oklahoma City, OK 73105
Counsel for Appellee
OTHER APPEARANCES
Jacob Keyes
Attorney at Law
Choctaw National Judicial Branch
P.O. Box 1210
Durant, OK 74702
Amicus Curiae
Opinion by: Rowland, V.P.J.
Kuehn, P.J.: Concur
Lumpkin, J.: Concur in Result
Lewis, J.: Specially Concur
Hudson, J.: Specially Concur

App.12a
LUMPKIN, JUDGE:
CONCURRING IN RESULTS:
¶ 1 Bound by my oath and the Federal-State
relationships dictated by the U.S. Constitution, I
must at a minimum concur in the results of this opinion. While our nation’s judicial structure requires me
to apply the majority opinion in the 5-4 decision of
the U.S. Supreme Court in McGirt v. Oklahoma, ___
U.S. ___, 140 S. Ct. 2452 (2020), I do so reluctantly.
Upon the first reading of the majority opinion in
McGirt, I initially formed the belief that it was a
result in search of an opinion to support it. Then
upon reading the dissents by Chief Justice Roberts
and Justice Thomas, I was forced to conclude the
Majority had totally failed to follow the Court’s own
precedents, but had cherry picked statutes and treaties,
without giving historical context to them. The Majority
then proceeded to do what an average citizen who
had been fully informed of the law and facts as set
out in the dissents would view as an exercise of raw
judicial power to reach a decision which contravened
not only the history leading to the disestablishment
of the Indian reservations in Oklahoma, but also
willfully disregarded and failed to apply the Court’s
own precedents to the issue at hand.
¶ 2 My quandary is one of ethics and morality.
One of the first things I was taught when I began my
service in the Marine Corps was that I had a duty to
follow lawful orders, and that same duty required me to
resist unlawful orders. Chief Justice Roberts’s scholarly
and judicially penned dissent, actually following
the Court’s precedents and required analysis, vividly
reveals the failure of the majority opinion to follow

App.13a
the rule of law and apply over a century of precedent
and history, and to accept the fact that no Indian
reservations remain in the State of Oklahoma.1 The
result seems to be some form of “social justice”
created out of whole cloth rather than a continuation
of the solid precedents the Court has established
over the last 100 years or more.

1 Senator Elmer Thomas, D-Oklahoma, was a member of the
Senate Committee on Indian Affairs. After hearing the Commissioner’s speech regarding the Indian Reorganization Act
(IRA) in 1934, Senator Thomas opined as follows:
I can hardly see where it (the IRA) could operate in a
State like mine where the Indians are all scattered
out among the whites and they have no reservation,
and they could not get them into a community
without you would go and buy land and put them on
it. Then they would be surrounded very likely with
thickly populated white sections with whom they
would trade and associate. I just cannot get through
my mind how this bill can possibly be made to operate
in a State of thickly-settled population. (emphasis
added).
John Collier, Commissioner of Indian Affairs, Memorandum of
Explanation (regarding S. 2755), p. 145, hearing before the United
States Senate Committee on Indian Affairs, February 27, 1934.
Senator Morris Sheppard, D-Texas, also on the Senate Committee
on Indian Affairs, stated in response to the Commissioner’s
speech that in Oklahoma, he did not think “we could look forward
to building up huge reservations such as we have granted to the
Indians in the past.” Id. at 157. In 1940, in the Foreword to
Felix S. Cohen, Handbook of Federal Indian Law (1942), Secretary
of the Interior Harold Ickes wrote in support of the IRA, “[t]he
continued application of the allotment laws, under which Indian
wards have lost more than two-thirds of their reservation lands,
while the costs of Federal administration of these lands have
steadily mounted, must be terminated.” (emphasis added).

App.14a
¶ 3 The question I see presented is should I blindly
follow and apply the majority opinion or do I join with
Chief Justice Roberts and the dissenters in McGirt
and recognize “the emperor has no clothes” as to the
adherence to following the rule of law in the application of the McGirt decision?
¶ 4 My oath and adherence to the Federal-State
relationship under the U.S. Constitution mandate that
I fulfill my duties and apply the edict of the majority
opinion in McGirt. However, I am not required to do
so blindly and without noting the flaws of the opinion
as set out in the dissents. Chief Justice Roberts and
Justice Thomas eloquently show the Majority’s mischaracterization of Congress’s actions and history with
the Indian reservations. Their dissents further demonstrate that at the time of Oklahoma Statehood in 1907,
all parties accepted the fact that Indian reservations
in the state had been disestablished and no longer
existed. I take this position to adhere to my oath as a
judge and lawyer without any disrespect to our FederalState structure. I simply believe that when reasonable
minds differ they must both be reviewing the totality
of the law and facts.

App.15a
LEWIS, JUDGE, SPECIALLY CONCURRING:
¶ 1 Based on my special writings in Bosse v. State,
2021 OK CR 3, ___ P.3d ___ and Hogner v. State, 2021
OK CR 4, ___ P.3d ___, I specially concur. Following
the precedent of McGirt v. Oklahoma, 140 S. Ct. 2452
(2020), Oklahoma has no jurisdiction over an Indian
who commits a crime in Indian Country, or over any
person who commits a crime against an Indian in
Indian Country. This crime occurred within the
historical boundaries of the Choctaw Nation Reservation and that Reservation has not been expressly
disestablished by the United States Congress. Additionally, Appellant is an Indian, thus the jurisdiction
is governed by the Major Crimes Act found in the
United States Code.
¶ 2 Oklahoma, therefore, has no jurisdiction,
concurrent or otherwise, over Appellant in this case.
Thus, I concur that this case must be reversed and
remanded with instructions to dismiss. Jurisdiction
is in the hands of the United States Government.

App.16a
HUDSON, JUDGE, CONCUR IN RESULTS:
¶ 1 Today’s decision applies McGirt v. Oklahoma,
140 S. Ct. 2452 (2020) to the facts of this case and
dismisses convictions from Pittsburg County for first
degree murder and assault and battery on a police
officer. I concur in the results of the majority’s opinion
based on the stipulations below concerning the Indian
status of Appellant and the location of this crime
within the historic boundaries of the Choctaw Reservation. Under McGirt, the State cannot prosecute
Appellant because of his Indian status and the
occurrence of this murder within Indian Country as
defined by federal law. I therefore as a matter of stare
decisis fully concur in today’s decision.
¶ 2 I disagree, however, with the majority’s adoption as binding precedent that Congress never disestablished the Choctaw Reservation. Here, the State took
no position below on whether the Choctaw Nation has,
or had, a reservation. The State’s tactic of passivity has
created a legal void in this Court’s ability to adjudicate
properly the facts underlying Appellant’s argument.
This Court is left with only the trial court’s conclusions
of law to review for an abuse of discretion. We should
find no abuse of discretion based on the record evidence
presented. But we should not establish as binding
precedent that the Choctaw Nation was never disestablished based on this record.
¶ 3 Finally, I write separately to note that McGirt
resurrects an odd sort of Indian reservation. One where
a vast network of cities and towns dominate the
regional economy and provide modern cultural, social,
educational and employment opportunities for all
people on the reservation. Where the landscape is

App.17a
blanketed by modern roads and highways. Where
non-Indians own property (lots of it), run businesses
and make up the vast majority of inhabitants. On its
face, this reservation looks like any other slice of the
American heartland—one dotted with large urban
centers, small rural towns and suburbs all linked by
a modem infrastructure that connects its inhabitants,
regardless of race (or creed), and drives a surprisingly
diverse economy. This is an impressive place—a
modern marvel in some ways—where Indians and
non-Indians have lived and worked together since at
least statehood, over a century.
¶ 4 McGirt orders us to forget all of that and
instead focus on whether Congress expressly disestablished the reservation. We are told this is a cut-anddried legal matter. One resolved by reference to
treaties made with the Five Civilized Tribes dating
back to the nineteenth century. Ignore that Oklahoma
has continuously asserted jurisdiction over this land
since statehood, let alone the modern demographics
of the area.
¶ 5 The immediate effect under federal law is to
prevent state courts from exercising criminal jurisdiction over a large swath of Greater Tulsa and much
of eastern Oklahoma. Yet the effects of McGirt range
much further. Crime victims and their family members
in a myriad of cases previously prosecuted by the
State can look forward to a do-over in federal court of
the criminal proceedings where McGirt applies. And
they are the lucky ones. Some cases may not be
prosecuted at all by federal authorities because of
issues with the statute of limitations, the loss of evidence, missing witnesses or simply the passage of

App.18a
time. All of this foreshadows a hugely destabilizing
force to public safety in eastern Oklahoma.
¶ 6 McGirt must seem like a cruel joke for those
victims and their family members who are forced to
endure such extreme consequences in their case. One
can certainly be forgiven for having difficulty seeing
where—or even when—the reservation begins and
ends in this new legal landscape. Today’s decision on
its face does little to vindicate tribal sovereignty and
even less to persuade that a reservation in name only is
necessary for anybody’s well-being. The latter point
has become painfully obvious from the growing number
of cases that come before this Court where non-Indian
defendants are challenging their state convictions
using McGirt because their victims were Indian.
¶ 7 Congress may have the final say on McGirt.
In McGirt, the court recognized that Congress has
the authority to take corrective action, up to and
including disestablishment of the reservation. We
shall see if any practical solution is reached as one is
surely needed. In the meantime, cases like Appellant’s
remain in limbo until federal authorities can work
them out. Crime victims and their families are left to
run the gauntlet of the criminal justice system once
again, this time in federal court. And the clock is
running on whether the federal system can keep up
with the large volume of new cases undoubtedly
heading their way from state court.

App.19a
DISTRICT COURT OF PITTSBURG COUNTY,
STATE OF OKLAHOMA,
ORDER WITH FINDINGS OF FACT AND
CONCLUSIONS OF LAW
(SIGNED OCTOBER 27, 2020,
FILED OCTOBER 28, 2020)
IN THE DISTRICT COURT OF PITTSBURG
COUNTY, STATE OF OKLAHOMA
________________________
STATE OF OKLAHOMA,
Plaintiff/Appellee.
v.
DEVIN WARREN SIZEMORE,
Defendant/Appellant,
________________________
Pittsburg County Case No.: CF-2016-593
Court of Criminal Appeals: F-2018-1140
Before: Tim MILLS, Associate District Judge
Pittsburg County.
COURT ORDER WITH FINDINGS OF FACT
AND CONCLUSIONS OF LAW IN
ACCORDANCE WITH ORDER REMANDING
FOR EVIDENTIARY HEARING ISSUED
AUGUST 19, 2020
FINDINGS OF FACT AND
CONCLUSIONS OF LAW

App.20a
This matter came on for hearing before the Court
on October 14, 2020, in accordance with the Oklahoma
Court of Criminal Appeals remand order issued on
August 19, 2020. Defendant/Appellant, Mr. Sizemore,
appeared by and through Oklahoma Indigent Defense
System attorney Katie Bourassa. The State appeared
by and through District Attorney Chuck Sullivan,
and Assistant Attorneys General Jennifer Crabb and
Caroline Hunt. Defendant previously waived his right
to be present. The Choctaw Nation appeared as
Amicus Curiae by and through Jacob Keyes. A record
was taken by Certified Court Reporter, Emily Wright.
The Court makes its findings based upon the stipulations, evidence,1 and argument presented at the
hearing, and the pleadings and attachments filed in
this Court2 and the Oklahoma Court of Criminal
Appeals (“OCCA”).
In the August 19, 2020 Order Remanding for
Evidentiary Hearing, the Oklahoma Court of Criminal
Appeals directed this Court to address only the
following issues:
First, Sizemore’s status as an Indian. The
District Court must determine whether (1)
1 At the hearing, this Court admitted into evidence the entirety
of Defendant’s Evidentiary Hearing Exhibits (“Def. Ex.”) packet,
with the exception of Exhibit 21 (Indian Country Criminal
Jurisdictional Chart) and Exhibit 22 (Choctaw Nation CrossDeputization Agreements List (1994-2020)).
2 Prior to the hearing, this Court read Defendant’s Remanded
Hearing Brief Applying McGirt Analysis to Choctaw Nation
Reservation and the Amicus Curiae Choctaw Nation’s Brief in
Support of the Continued Existence of the Choctaw Reservation
and Its Boundaries, each filed October 9, 2020. These were the
only pleadings filed in this Court in relation to this hearing.

App.21a
Sizemore has some Indian blood, and (2) is
recognized as an Indian by a tribe or the
federal government.
Second, whether the crime occurred in
Indian Country. The District Court is directed
to follow the analysis set out in McGirt [v.
Oklahoma, 140 S. Ct. 2452 (2020)], determining (1) whether Congress established a
reservation for the Choctaw Nation, and (2)
if so, whether Congress specifically erased
those boundaries and disestablished the
reservation.
Order Remanding for Evidentiary Hearing at 3
(footnote omitted), Sizemore v. State, No. F-2018-1140
(Okla. Crim. App. Aug. 19, 2020). This Court will
address each issue separately.
MR. SIZEMORE’S STATUS AS AN INDIAN
The OCCA directed this Court to address: “First,
Sizemore’s status as an Indian. The District Court
must determine whether (1) Sizemore has some Indian
blood, and (2) is recognized as an Indian by a tribe or
the federal government.” Order Remanding for Evidentiary Hearing at 3 (footnote omitted).
Findings of Fact
Prior to the hearing, the parties stipulated as
follows:
Devin Sizemore has 1/128 Choctaw blood and
was an enrolled member of the federally
recognized Choctaw Nation at the time of
the crime. Verification of Mr. Sizemore’s
tribal membership from the Choctaw Nation

App.22a
is appended to this Stipulation as Exhibits
1 and 2.
Def. Exs. 1-3.
This Court adopts these stipulations as facts.
Based upon these stipulated facts, this Court finds
Devin Sizemore (1) has some Indian blood, and (2)
was recognized as Indian by a tribe or the federal
government.
Conclusions of Law
Having answered the above questions in the
affirmative, this Court finds that Devin Sizemore is an
Indian.
WHETHER THE CRIMES
OCCURRED IN INDIAN COUNTRY
The OCCA directed this Court to address: “Second,
whether the crimes occurred in Indian Country. The
District Court is directed to follow the analysis set
out in McGirt, determining (1) whether Congress
established a reservation for the Choctaw Nation, and
(2) if so, whether Congress specifically erased those
boundaries and disestablished the reservation.” Order
Remanding for Evidentiary Hearing at 3. The Court
finds as follows:
Findings of Fact
1.

“[The Choctaw Nation] and other Indian
Nations occupied much of what are today the
southern and southeastern parts of the
United States.” Choctaw Nation v. Oklahoma, 397 U.S. 620, 622 (1970). In the early
nineteenth century, Congress sought to

App.23a
remove all Indian tribes from their native
lands to west of the Mississippi River. Id.
at 623. Southern states were attempting to
force the Indians out to satisfy pressure
from settlers for land. Georgia “asserted
jurisdiction over the Cherokees and prepared
to distribute the Cherokee lands. Mississippi
soon followed suit, abolishing tribal government and extending its laws to Choctaw
territory.” Choctaw Nation, 397 U.S. at 625.
These developments led to the enactment of
the Indian Removal Act of 1830, 4 Stat. 411.
(Def. Ex. 8).
2.

The Indian Removal Act authorized the President to divide public domain lands into
defined “districts” for tribes removing west
of the Mississippi River. It authorized “the
President . . . to assure the [Nations] . . . that
the United States will forever secure and
guaranty to them, and their heirs or successors, the country so exchanged with them;
and if they prefer it . . . the United States
will cause a patent or grant to be made and
executed to them for the same.” The Indian
Removal Act, §§ 1, 3, 4 Stat. 411; (Def. Ex. 8);
see also McGirt, 140 S. Ct. at 2460 (quoting
Indian Removal Act, § 3, 4 Stat. 411).

3.

The 1830 Treaty of Dancing Rabbit Creek,
Sep. 27, 1830, 7 Stat. 333 (“1830 Treaty”)
(Def. Ex. 9), used precise geographical terms
and secured to the Choctaw Nation “a tract
of country west of the Mississippi River, in
fee simple to them and their descendants, to
insure to them while they shall exist as a

App.24a
nation and live on it.” The 1830 Treaty
secured to the Choctaw Nation “the jurisdiction and government of all the persons and
property that may be within their limits west,
so that no Territory or State shall ever have
a right to pass laws for the government of
the Choctaw Nation . . . and that no part of
the land granted them shall ever be embraced
in any Territory or State.” Id. at art 4. The
1830 Treaty was “a guarantee that [the
Choctaw] would not again be forced to
move.” Choctaw Nation, 397 U.S. at 625.
4.

The Treaty of Doaksville, Jan. 17, 1837, 11
Stat. 573 (“1837 Treaty”) (Def. Ex. 10), art. 1,
secured to the Chickasaw Nation a “district”
within the Choctaw Nation’s reservation,
using precise geographic terms to describe
the Chickasaw district. Id. at art. 2. The
Chickasaw Nation was to hold its district
“on the same terms that the Choctaws now
hold it, except the right of disposing of it,
(which is held in common with the Choctaws
and Chickasaws[]).” Id. at art. 1.

5.

In 1842, President John Tyler conveyed fee
patented title to the Treaty Territory to the
Choctaw Nation. 1842 Patent (Def. Ex. 11).
The patent recited the terms of Article 2 of
the 1830 Treaty and reserved the lands from
sale without the Nation’s consent. Id

6.

The 1855 Treaty of Washington, June 22,
1855, 11 Stat. 611 (Def. Ex. 12), reaffirmed
the 1830 and 1837 Treaties and modified the
western boundary of the Choctaw Reservation. The 1855 Treaty made the Choctaw

App.25a
and Chickasaw governments independent of
each other. Id pmbl., art. 4. The Choctaw,
for the benefit of the Chickasaw, specifically
relinquished any claim to territory west of
100th degree west longitude. Id. at art. 9.
The boundaries of “Choctaw and Chickasaw
country” were again specifically set forth in
geographic terms. Id. at art 1. The United
States explicitly asserted that “pursuant to
[the Indian Removal Act], the United States
do hereby forever secure and guarantee the
lands embraced within the said limits” to
the Choctaw and Chickasaw and explicitly
reserved those lands from sale “without the
consent of both tribes.” Id. The 1855 Treaty
repeated the promise to secure to the
Choctaw and Chickasaw “the unrestricted
right of self-government, and full jurisdiction,
over persons and property.” Id. at art. 7.
7.

Following the Civil War, the Choctaw and
Chickasaw Nations negotiated another treaty
with the United States. In the 1866 Treaty
of Washington, Apr. 28, 1866, 14 Stat. 769
(“1866 Treaty”) (Def. Ex. 13), the Nations
explicitly “cede[d] to the United States the
territory west of the 98 degrees west longitude, known as the leased district,” id. at art.
3, which altered only the western boundary
of the Chickasaw and Choctaw Nations. The
United States expressly “re-affirm[ed] all
obligations arising out of treaty stipulations or
acts of legislation with regard to the Choctaw
and Chickasaw Nations, entered into prior
to” the Civil War. Id. at art. 10. The 1866

App.26a
Treaty reaffirmed the Nations’ right to selfgovernance by expressly providing that no
legislation “shall [] in anywise interfere with
or annul their present tribal organization,
or their respective legislatures or judiciaries,
or the rights, laws, privileges, or customs of
the Choctaw and Chickasaw Nations respectively.” Id. at art 7. The 1866 Treaty
reaffirmed all pre-existing Treaty rights of
the Chickasaw and Choctaw Nations not inconsistent with its terms. Id. arts. 10, 45. This
treaty was the last to diminish boundaries
of the Choctaw Reservation.
8.

In 1893, Congress established the Dawes
Commission to negotiate agreements with the
Five Tribes for “the extinguishment of the
national or tribal title to any lands” in Indian
Territory “either by cession,” by allotment,
“or by such other method as may be agreed
upon.” § 16, 27 Stat. 612, 645-46. The Commission reported in 1894 that the Creek
Nation “would not, under any circumstances,
agree to cede any portion of their lands.”
McGirt, 140 S. Ct. at 2463 (citation and
internal quotation marks omitted). Although
McGirt referenced only the Creek Nation in
this statement, the Commission’s 1894 report
reflects that each of the Five Tribes refused
to cede tribal lands to the United States. Ann.
Rept. of the Comm. Five Civ. Tribes of 1894,
1895, and 1896 (1897) (Def. Ex. 17) at 14.
The Commission’s 1900 annual report also
reflects this refusal: “Had it been possible to
secure from the Five Tribes a cession to the

App.27a
United States of the entire territory at a
given price . . . the duties of the commission
would have been immeasurably simplified.
. . . When an understanding is had, however,
of the great difficulties which have been
experienced in inducing the tribes to accept
allotment in severalty . . . it will be seen
how impossible it would have been to have
adopted a more radical scheme of tribal
extinguishment, no matter how simple its
evolutions.” Seventh Ann. Rept. of the Comm.
Five Civ. Tribes (1900) (Pet. Ex. 18) at 9
(emphasis added).
9.

Under continued pressure, the Choctaw and
Chickasaw Nations agreed to the allotment
of their reservations under the Atoka Agreement, the terms of which were set forth in the
Curtis Act, Act of June 28, 1898, ch. 517, 30
Stat. 495 (Def. Ex. 19), § 29, and the Choctaw/
Chickasaw 1902 Supplemental Allotment
Agreement, Act of July 1, 1902, 32 Stat. 641
(“1902 Act”) (Def. Ex. 20). The central purpose of these Agreements was to facilitate
transfer of title from the Nation to individual tribal citizens. 30 Stat. at 505-06 (Def.
Ex. 19); 32 Stat. at 642 (Def. Ex. 20). Some
lands were exempt from allotment, including
capitol buildings of both Choctaw and Chickasaw Nations, as well as “all court-houses and
jails and other public buildings,” and lands
for schools, seminaries, orphanages, and
churches. 30 Stat. at 506 (Def. Ex. 19). The
Agreements relied on reservation boundaries
to implement the terms. See id. at 508, 509,

App.28a
510. They contained no cessions of land to
the United States.
10. Prior to the hearing, the parties stipulated:
The crime occurred “within the historical
geographic area of the Choctaw Nation,
as set forth in the 1830, 1837, 1855,
and 1866 treaties between the Choctaw
Nation, the Chickasaw Nation, and the
United States.”
Def. Ex. 1. See also Def. Exs. 9-13. This Court
adopts this stipulation as facts.
11. The State offered no evidence or argument
as to whether a reservation was ever established or disestablished for the Choctaw
Nation. The State takes no position as to the
facts underlying the existence, historically
or now, of the Choctaw Nation Reservation.
12. There is no evidence before the Court that
Congress has acted to erase or diminish the
Choctaw Nation boundaries set forth in the
1855 and 1866 Treaties.
13. The Choctaw Nation is a federally recognized
Indian tribe, see Indian Entities Recognized
by and Eligible to Receive Services from the
United States Bureau of Indian Affairs, 85
Fed. Reg. 5462, 5465 (Jan. 30, 2020), that
exercises sovereign authority under a Constitution approved by the Secretary of
Interior, see 1983 Choctaw Constitution.
14. Prior to the hearing, the parties stipulated:

App.29a
If the Court determines that those
treaties established a reservation, and
if the Court further concludes that Congress never explicitly erased those
boundaries and disestablished that
reservation, then the crime occurred
within Indian Country as defined by 18
U.S.C. § 1151(a).
CONCLUSIONS OF LAW
Following the McGirt analysis, this Court must
first determine whether Congress established a
reservation for the Choctaw Nation. In McGirt v.
Oklahoma, 140 S. Ct. 2452, 2475 (2020), the Supreme
Court explained it has “never insisted on any particular
form of words . . . when it comes to establishing [a
reservation].” The Court noted that the “early treaties
did not refer to the Creek lands as a ‘reservation’—
perhaps because that word had not yet acquired such
distinctive significance in federal Indian law. But we
have found similar language in treaties from the
same era sufficient to create a reservation.” Id. at
2461 (citation omitted). The Supreme Court explained
that “the Creek were promised not only a ‘permanent
home’ that would be ‘forever set apart’; they were
also assured a right to self-government on lands that
would lie outside both the legal jurisdiction and
geographic boundaries of any State.” Id at 2461-62.
The Court found, “Under any definition, this was a
reservation.” Id. at 2462.
In applying the analysis set out in McGirt to the
case at bar, this Court finds that a reservation was
established for the Choctaw Nation by the treaties
described above. Like Creek treaty promises, the

App.30a
United States’ treaty promises to Choctaw Nation
“weren’t made gratuitously.” McGirt, 140 S. Ct. at
2460. Like Creek treaties, the Choctaw treaties involved
exchange of tribal homelands for a new homeland in
Indian Territory, and promised “a ‘permanent home’
that would be ‘forever set apart’ and “a right to selfgovernment on lands that would lie outside both the
legal jurisdiction and geographic boundaries of any
State.” Id. at 2461-61 It is clear that Congress established a reservation for the Choctaw Nation.
Upon finding that Congress established a reservation for the Choctaw Nation, this Court must next
determine whether Congress erased those boundaries
and disestablished the reservation. As the Supreme
Court made clear in McGirt, “No determine whether
a tribe continues to hold a reservation, there is only
one place we may look: the Acts of Congress.” Id. at
2462. “[T]he only ‘step’ proper for a court of law” is
“to ascertain and follow the original meaning of the
law” before it. Id at 2468. The constitutional authority
to breach Congress’s promises and treaties “belongs
to Congress alone.” Id. at 2462 (citing Lone Wolf v.
Hitchcock, 187 U.S. 553, 566-68) (1903)). The Supreme
Court will not “lightly infer such a breach once Congress has established a reservation.” McGirt at 2468
(citing Solem v. Bartlett, 465 U.S. 463, 470 (1984)).
“[O]nce a reservation is established, it retains that
status ‘until Congress explicitly indicates otherwise.’”
McGirt at 2469 (quoting Solem, 465 U.S. at 470).
A statute disestablishing a reservation may provide an “[e]xplicit reference to cession” or an “unconditional commitment . . . to compensate the Indian
tribe for its opened land.” McGirt at 2462 (quoting
Solem, 465 U.S. at 470) (internal quotation marks

App.31a
omitted). It also may direct that tribal lands be
“restored to the public domain,” McGirt at 2462
(quoting Hagen v. Utah, 510 U.S. 399, 412 (1994))
(internal quotation marks omitted), or state that a
reservation is “discontinued, abolished, or vacated.”
McGirt at 2463 (quoting Mattz v. Arnett, 412 U.S. 481,
504, n.22 (1973) (internal quotation marks omitted)).
See also DeCoteau v. Dist. Cnty. Court for Tenth
Judicial Dist., 420 U.S. 425, 439-40, n.22 (1975). While
“[d]isestablishment has ‘never required any particular
form of words,’” McGirt at 2463 (quoting Hagen, 510
U.S. at 411), “it does require that Congress clearly
express its intent to do so, [c]ommon[ly with an]
‘[e]xplicit reference to cession or other language evidencing the present and total surrender of all tribal
interests.’” McGirt at 2463 (quoting Nebraska v.
Parker, 136 S. Ct. 1072, 1079 (2016)).
No evidence was presented to show that Congress
erased or disestablished the boundaries of the Choctaw
Nation Reservation or that the State of Oklahoma
has jurisdiction in this matter. The relevant allotmentera statutes applicable to the Choctaw Nation—the
Atoka Agreement and the 1902 Act—did not erase
the boundaries of or disestablish the Choctaw Reservation. There is no language in these statutes “that
could plausibly be read as an Act of disestablishment.” McGirt, 140 S. Ct. at 2468. As McGirt makes
clear, “Congress does not disestablish a reservation
simply by allowing the transfer of individual plots,
whether to Native Americans or others.” Id. at 2464
(citations omitted). “Congress may have passed allotment laws to create the conditions for disestablishment.
But to equate allotment with disestablishment would
confuse the first step of a march with arrival at its

App.32a
destination.” Id. at 2465. Without “a statute evincing
anything like the ‘present and total surrender of all
tribal interests’ in the affected lands,” id. at 2464,
this Court finds the Choctaw Reservation was not
disestablished.
This Court finds that Congress established a
reservation for the Choctaw Nation, and Congress
never specifically erased those boundaries and disestablished the reservation. Therefore, the crimes
occurred in Indian Country.
CONCLUSION
As a result of the findings and conclusions set
forth above, the Court concludes Devin Warren
Sizemore was an Indian and this crime occurred in
Indian Country.
IT IS SO ORDERED this 27th day of October, 2020.
/s/ Tim Mills
Associate District Judge
Pittsburg County

App.33a
COURT OF CRIMINAL APPEALS,
STATE OF OKLAHOMA, ORDER REMANDING
FOR EVIDENTIARY HEARING
(AUGUST 19, 2020)
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA
________________________
DEVIN WARREN SIZEMORE,
Appellant,
v.
THE STATE OF OKLAHOMA,
Appellee.
________________________
Case No. F-2018-1140
Before: David B. LEWIS, Presiding Judge.,
Dana KUEHN, Vice President Judge.,
Gary L. LUMPKIN, Judge.,
Robert L. HUDSON, Judge.,
Scott ROWLAND, Judge.
Devin Warren Sizemore was tried by jury in the
District Court of Pittsburg County, Case No. CF2016-593, and convicted of First Degree Murder
(Count 1), in violation of 21 O.S.Supp.2012, § 701.7;
and Battery/Assault and Battery on a Police Officer
(Count 2), in violation of 21 O.S.Supp.2015, § 649.
In accordance with the jury’s recommendation, the
Honorable Tim Mills, sentenced Sizemore to life

App.34a
imprisonment without the possibility of parole on
Count 1 and five years imprisonment on Count 2,
and further ordered the sentences to be served concurrently. Sizemore appeals his Judgment and Sentence.
In Proposition 1 of his Brief-in-Chief, filed September 18, 2019, Sizemore claims the District Court
lacked jurisdiction to try him. Sizemore argues that
he is a citizen of the Choctaw Nation and that the
crimes occurred within the boundaries of the Choctaw
Nation Reservation.1 Sizemore, in his direct appeal,
relied on jurisdictional issues addressed in Murphy v.
Royal, 875 F.3d 896 (10th Cir. 2017), which was
affirmed by the United States Supreme Court in
Sharp v. Murphy, 591 U.S. ___, 140 S. Ct. 2412
(2020) for the reasons stated in McGirt v. Oklahoma,
591 U.S. ___, 140 S. Ct. 2452 (2020).2
Sizemore’s claim raises two separate questions:
(a) his Indian status and (b) whether the crime
1 Sizemore also claims that defense counsel was ineffective in
part for failing to properly litigate the issue of jurisdiction. In a
Notice of Extra-Record Evidence Supporting Proposition II(A),
(B), and (C) of Brief of Appellant and/or Alternatively Application for Evidentiary Hearing on Sixth Amendment Claims,
tendered for filing, he asks the Court to either supplement the
record on appeal with, among other items, documentation bearing
on the issue of jurisdiction or alternatively to order an evidentiary hearing for the purpose of developing the record with regard
to his claims.
2 On February 21, 2020, we held Sizemore’s direct appeal in
abeyance pending the resolution of the litigation in Murphy.
Following the decision in McGirt, the State asked to file a supplemental response to Sizemore’s jurisdictional claim and
Sizemore objected. In light of the present order, there is no need
for an additional response from the State at this time and that
request is DENIED.

App.35a
occurred in Indian Country. These issues require factfinding. We therefore REMAND this case to the
District Court of Pittsburgh County, for an evidentiary hearing to be held within sixty (60) days from the
date of this Order.
Recognizing the historical and specialized nature
of this remand for evidentiary hearing, we request
the Attorney General and District Attorney work in
coordination to effect uniformity and completeness in
the hearing process. Upon Sizemore’s presentation of
prima facie evidence as to his legal status as an
Indian and as to the location of the crime in Indian
Country, the burden shifts to the State to prove it
has subject matter jurisdiction.
The hearing shall be transcribed, and the court
reporter shall file an original and two (2) certified
copies of the transcript within twenty (20) days after
the hearing is completed. The District Court shall
then make written findings of fact and conclusions of
law, to be submitted to this Court within twenty (20)
days after the filing of the transcripts in the District
Court. The District Court shall address only the
following issues:
First, Sizemore’s status as an Indian. The District
Court must determine whether (1) Sizemore has
some Indian blood, and (2) is recognized as an Indian
by a tribe or the federal government.3

3 See United States v. Diaz, 679 F.3d 1183, 1187 (10th Cir. 2012);
United States v. Prentiss, 273 F.3d 1277, 1280-81 (10th Cir. 2001).
See generally Goforth v. State, 1982 OK CR 48, ¶ 6, 644 P.2d 114,
116.

App.36a
Second, whether the crime occurred in Indian
Country. The District Court is directed to follow the
analysis set out in McGirt, determining (1) whether
Congress established a reservation for the Choctaw
Nation, and (2) if so, whether Congress specifically
erased those boundaries and disestablished the
reservation. In making this determination the District
Court should consider any evidence the parties provide,
including but not limited to treaties, statutes, maps,
and/or testimony.
The District Court Clerk shall transmit the
record of the evidentiary hearing, the District Court’s
findings of fact and conclusions of law, and any other
materials made a part of the record, to the Clerk of
this Court, and counsel for Appellant, within five (5)
days after the District Court has filed its findings of
fact and conclusions of law. Upon receipt thereof, the
Clerk of this Court shall promptly deliver a copy of
that record to the Attorney General. A supplemental
brief, addressing only those issues pertinent to the
evidentiary hearing and limited to twenty (20) pages
in length, may be filed by either party within twenty
(20) days after the District Court’s written findings
of fact and conclusions of law are filed in this Court.
Provided however, in the event the parties agree
as to what the evidence will show with regard to the
questions presented, they may enter into a written
stipulation setting forth those facts upon which they
agree and which answer the questions presented and
provide the stipulation to the District Court. In this
event, no hearing on the questions presented is
necessary. Transmission of the record regarding the
matter, the District Court’s findings of fact and con-

App.37a
clusions of law and supplemental briefing shall occur
as set forth above.
IT IS FURTHER ORDERED that Sizemore’s
pending motion to file under seal his Notice of ExtraRecord Evidence Supporting Proposition II (A), (B),
and (C) of Brief of Appellant and/or Alternatively
Application for Evidentiary Hearing on Sixth
Amendment Claims is GRANTED. The Clerk of this
Court is directed to file the Notice tendered for filing
under seal. The Clerk of this Court shall transmit
copies of the following, with this Order, to the District
Court of Pittsburg County: Appellant’s Brief in Chief
filed September 18, 2019, as well as the sealed Notice
of Extra-Record Evidence Supporting Proposition II
(A), (B), and (C) of Brief of Appellant and/or Alternatively Application for Evidentiary Hearing on Sixth
Amendment Claims; Appellant’s Reply Brief filed
February 3, 2020; and Appellee’s Response Brief filed
January 16, 2020.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF
THIS COURT this 19th day of August, 2020.

App.38a
/s/ David B. Lewis
Presiding Judge
/s/ Dana Kuehn
Vice Presiding Judge
/s/ Gary L. Lumpkin
Judge
/s/ Robert L. Hudson
Judge
/s/ Scott Rowland
Judge
ATTEST:
/s/ John D. Hadden
Clerk

